FILED

UNITED STATES COURT OF APPEALS

JUN 17 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MITCHELL TAEBEL,
Plaintiff-Appellant,

No. 20-15487
D.C. No. 2:19-cv-05764-JAT-CDB
District of Arizona, Phoenix

v.
ORDER
ALANE ORTEGA; et al.,
Defendants-Appellees.
On May 19, 2020, this court ordered appellant, within 21 days, to pay the
filing fees for this appeal. The order warned appellant that failure to comply would
result in the automatic dismissal of the appeal by the Clerk of the Court. To date,
appellant has not complied with the court’s order. Accordingly, this appeal is
dismissed for failure to prosecute. See 9th Cir. R. 42-1.
All other pending motions are denied as moot.
This order served on the district court shall, 21 days after the date of the
order, act as and for the mandate of this court.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Lance C. Cidre
Deputy Clerk
Ninth Circuit Rule 27-7
LCC/MOATT

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 1 of 18

1

MDR

2
3
4
5

6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Mitch Taebel,

10
11
12

No. CV 19-05764-PHX-JAT(CDB)
Plaintiff,

v.

ORDER

Alane Ortega, et al.,

13

Defendants.

14

JDDL

15

On December 6, 2019, Plaintiff Mitch Taebel, who is confined in a Maricopa

16

County Jail, filed a three-page handwritten Complaint, which the Court construed as a pro

17

se civil rights Complaint pursuant to 42 U.S.C. § 1983. In a December 12,2019 Order, the

18

Court dismissed the Complaint for failure to comply with Local Rule of Civil Procedure

19

3.4 and gave Plaintiff thirty days to (1) file an amended complaint on a court-approved

20

form and (2) either pay the filing and administrative fees or file an Application to Proceed

21

In Forma Pauperis.

22

On January 9, 2020, Plaintiff filed a 38-page First Amended Complaint (Doc. 4).

23

On January 17,2020, he filed a 25-page Supplemental Civil Complaint with over 600 pages

24

of attachments. On January 27, 2020, Plaintiff filed an Application to Proceed In Forma

25

Pauperis (Doc. 6). On February 10,2020, Plaintiff filed a 20-page “Motion for Rule 65(b)

26

Restraining Order” (Doc. 8) with over 300 pages of attachments. The Court will grant the

27

Application to Proceed, dismiss the First Amended Complaint with leave to amend, and

28

deny without prejudice the Motion for Rule 65(b) Restraining Order.

Case 2:19-cv-05764-JAT--CDB Document 9 Filed 02/14/20 Page 2 of 18

1

I.

2

Application to Proceed In Forma Pauperis and Filing Fee
The Court will grant Plaintiffs Application to Proceed In Forma Pauperis. 28

3

U.S.C. § 1915(a). Plaintiff must pay the statutory filing fee of $350.00.

4

§ 1915(b)(1). The Court will assess an initial partial filing fee of $73.33. The remainder

5

of the fee will be collected monthly in payments of 20% of the previous month’s income

6

credited to Plaintiffs trust account each time the amount in the account exceeds $10.00.

7

28 U.S.C. § 1915(b)(2). The Court will enter a separate Order requiring the appropriate

8

government agency to collect and forward the fees according to the statutory formula.

9

II.

28 U.S.C.

Statutory Screening of Prisoner Complaints

10

The Court is required to screen complaints brought by prisoners seeking relief

11

against a governmental entity or an officer or an employee of a governmental entity. 28

12

U.S.C. § 1915A(a). The Court must dismiss a complaint or portion thereof if a plaintiff

13

has raised claims that are legally frivolous or malicious, that fail to state a claim upon which

14

relief may be granted, or that seek monetary relief from a defendant who is immune from

15

such relief. 28 U.S.C. § 1915A(b)(l)-(2).

16

Local Rule of Civil Procedure 3.4 requires, in part, that “[a] 11 complaints ... by

17

incarcerated persons shall be signed and legibly written or typewritten on forms approved

18

by the Court and in accordance with the instructions provided with the forms.” The court-

19

approved form complaint is six pages long and both the form complaint and accompanying

20

instructions permit an inmate to attach “no more than fifteen additional pages” of

21

standard letter-sized paper. (Emphasis in original.) Thus, a document that complies with

22

Local Rule of Civil Procedure 3.4 would be no longer than 21 pages.

23

Plaintiffs 38-page First Amended Complaint far exceeds the page limitation.1 The

24

Court will dismiss the First Amended Complaint without prejudice for failure to comply

25

with Local Rule of Civil Procedure 3.4.

26
27
28

JDDL

i

The 38 pages include two pages of attachments. And, if the Court were to consider
the information in the Supplemental Civil Complaint, the First Amended Complaint would
consist of over 60 pages. Moreover, filing supplements or addenda is not the proper
method for amending a pleading.
-2-

Case 2:19-cv-05764-JAT--CDB Document 9 Filed 02/14/20 Page 3 of 18

1

III.

Leave to Amend

2

Within 30 days, Plaintiff may submit a second amended complaint that cures the

3

deficiencies identified in this Order. The Clerk of Court will mail Plaintiff a court-

4

approved form to use for filing a second amended complaint. If Plaintiff fails to use the

5

court-approved form, the Court may strike the second amended complaint and dismiss this

6

action without further notice to Plaintiff.

7

Plaintiff must clearly designate on the face of the document that it is the “Second

8

Amended Complaint.” The second amended complaint must be retyped or rewritten in its

9

entirety on the court-approved form and may not incorporate any part of the original

10

Complaint or First Amended Complaint by reference. Plaintiff may include only one claim

11

per count.

. 12

A second amended complaint supersedes the original Complaint and First Amended

13

Complaint. Ferdikv. Bonzelet, 963 F.2d 1258, 1262 (9th Cir. 1992); Hal Roach Studios v.

14

RichardFeiner & Co., 896 F.2d 1542, 1546 (9th Cir. 1990). After amendment, the Court

15

will treat the original Complaint and First Amended Complaint as nonexistent. Ferdik,

16

963 F.2d at 1262. Any cause of action that was raised in the original Complaint or First

17

Amended Complaint and that was voluntarily dismissed or was dismissed without

18

prejudice is waived if it is not alleged in a second amended complaint. Lacey v. Maricopa

19

County, 693 F.3d 896, 928 (9th Cir. 2012) (en banc).

20

If Plaintiff files a second amended complaint, he should take note that the

21

instructions provided with the court-approved civil rights form state, “You do not need to

22

cite case law.” (Emphasis added.) Moreover, Plaintiff is advised that the Court is not

23

repository for Plaintiffs paperwork. Indeed, the instructions provided with the court-

24

approved civil rights complaint form state that a plaintiff “should not submit exhibits with

25

the complaint or amended complaint. ...

26

oppose a motion to dismiss, a motion for summary judgment, or at trial.”

27

added.)

You should keep the exhibits to support or

28

JDDL

-3-

(Emphasis

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 4 of 18

JDDL

1

Plaintiff should be aware that Rule 8(a) of the Federal Rules of Civil Procedure

2

requires a “short and plain statement of the claim.” Fed. R. Civ. P. 8(a)(2). Rule 8(d)(1)

3

states that “[e]ach allegation must be simple, concise, and direct.” A complaint having the

4

factual elements of a cause of action scattered throughout the complaint and not organized

5

into a “short and plain statement of the claim” may be dismissed for failure to satisfy Rule

6

8(a). See Sparling v. Hoffman Constr. Co., 864 F.2d 635, 640 (9th Cir. 1988); see also

7

McHenry v. Renne, 84 F.3d 1172 (9th Cir. 1996). It is not the responsibility of the Court

8

to review a rambling narrative in an attempt to determine the number and nature of a

9

plaintiffs claims.

10

If Plaintiff files a second amended complaint, he should take note that prosecutors

11

are absolutely immune from liability for damages under § 1983 for their conduct in

12

“initiating a prosecution and in presenting the State’s case” insofar as that conduct is

13

“intimately associated with the judicial phase of the criminal process.”

14

Fitzsimmons, 509 U.S. 259, 270 (1993) (quoting Imbler v. Pachtman, 424 U.S. 409, 430-

15

31 (1976)). Immunity even extends to prosecutors for “eliciting false or defamatory

16

testimony from witnesses or for making false or defamatory statements during, and related

17

to, judicial proceedings.” Buckley, 509 U.S. at 270; see also Broam v. Bogan, 320 F.3d

18

1023, 1029-30 (9th Cir. 2003) (prosecutor absolutely immune from liability for failure to

19

investigate the accusations against a defendant before filing charges; for knowingly using

20

false testimony at trial; and for deciding not to preserve or turn over exculpatory material

21

before trial, during trial, or after conviction); Roe v. City & County of San Francisco, 109

22

F.3d 578, 583-84 (9th Cir. 1997) (absolute immunity for decision to prosecute or not to

23

prosecute and for professional evaluation of a witness and evidence assembled by the

24

police).

Buckley v.

25

Plaintiff should also be aware that a prerequisite for any relief under § 1983 is a

26

showing that the defendant has acted under the color of state law. An attorney representing

27

a criminal defendant does not act under color of state law. See Polk County v. Dodson, 454

28

U.S. 312, 325 (1981); see also Szijarto v. Legeman, 466 F.2d 864, 864 (9th Cir. 1972) (per

-4-

Case 2:19-cv-05764-JAT--CDB Document 9 Filed 02/14/20 Page 5 of 18

JDDL

1

curiam) (“[A]n attorney, whether retained or appointed, does not act ‘under color of state

2

law.”).

3

Plaintiff is advised that the “Maricopa County Criminal Court” is not a proper

4

Defendant. The proper name of the “Maricopa County Criminal Court” is the “Superior

5

Court of the State of Arizona in and for the County of Maricopa,” and it is a state court.

6

See Massengill v. Super. Ct. in and for Maricopa Cnty., 416 P.2d 1009, 1012 (Ariz. Ct.

7

App. 1966) (citing Ariz. Const, art. 6, § 1); see also Ariz. Const, art. 6, § 13 (the superior

8

courts “constitute a single court”). Under the Eleventh Amendment to the Constitution of

9

the United States, a state or state agency may not be sued in federal court without its

10

consent. Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100 (1984); Taylor v.

11

List, 880 F.2d 1040, 1045 (9th Cir. 1989); see alsoLucas v. Ariz. Sup. Ct. Fiduciary

12

Certification Program, 457 Fed. Appx. 689, 690 (9th Cir. 2011) (“The Arizona Supreme

13

Court ... is an ‘arm of the state’ for Eleventh Amendment purposes.”); Greater Los

14

Angeles Council on Deafness, Inc. v. Zolin, 812 F.2d 1103, 1110 (9th Cir. 1987) (“[A] suit

15

against the Superior Court is a suit against the State, barred by the eleventh amendment.”).

16

Furthermore, “a state is not a ‘person’ for purposes of section 1983. Likewise ‘arms of the

17

State’ ... are not ‘persons’ under section 1983.” Gilbreath v. Cutter Biological, Inc., 931

18

F.2d 1320, 1327 (9th Cir. 1991) (citation omitted).

19

Plaintiff should be aware that the Maricopa County Public Defender’s Office and

20

the Office of Public Defense Services are not proper defendants because they are nonjural

21

entities. See Wilson v. Yavapai Cnty., 2012 WL 1067959, at *4 (D. Ariz. 2012) (county

22

sheriffs office and county attorney’s office are nonjural entities); Foster v. Orleans Parish

23

Pub. Defendants Office, 2011 WL 446031, at *2 (E.D. La. Jan. 3, 2011) (public defender’s

24

office is “not an entity capable of being sued under § 1983”), report and recommendation

25

adopted, 2011 WL 445957 (E.D. La. Feb. 4, 2011).

26

Plaintiff is advised that the abstention doctrine set forth in Younger v. Harris, 401

27

U.S. 37 (1971), prevents a federal court in most circumstances from directly interfering

28

with ongoing criminal proceedings in state court and applies while the case works its way

-5 -

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 6 of 18

1

through the state appellate process. New Orleans Pub. Serv., Inc. v. Council of City ofNew

2

Orleans, 491 U.S. 350, 369 (1989) (“[f]or Younger purposes, the State’s trial-and-appeals

3

process is treated as a unitary system”); Huffman v. Pursue, Ltd., 420 U.S. 592, 608 (1975)

4

(“Virtually all of the evils at which Younger is directed would inhere in federal intervention

5

prior to completion of state appellate proceedings, just as surely as they would if such

6

intervention occurred at or before trial.”). “Only in the most unusual circumstances is a

7

defendant entitled to have federal interposition by way of injunction or habeas corpus until

8

after the jury comes in, judgment has been appealed from and the case concluded in the

9

state courts.” Drury v. Cox, 457 F.2d 764, 764-65 (9th Cir. 1972). Special circumstances

10

occur “[ojnly in cases of proven harassment or prosecutions undertaken by state officials

11

in bad faith without hope of obtaining a valid conviction and perhaps in other extraordinary

12

circumstances where irreparable injury can be shown.” Carden v. Montana, 626 F.2d 82,

13

84 (9th Cir. 1980) (quoting Perez v. Ledesma, 401 U.S. 82, 85 (1971)).

14
15

that situation, a temporary stay, rather than dismissal, is appropriate.

16

Albright, 381 F.3d 965, 981 (9th Cir. 2004). Staying the federal case until the state court

17

23

criminal case is no longer pending
allows the federal plaintiff an opportunity to pursue
constitutional challenges in the state proceeding (assuming, of
course, that such an opportunity is available under state law),
and the state an opportunity to pass on those constitutional
issues in the context of its own procedures, while still
preserving the federal plaintiffs opportunity to pursue
compensation in the forum of his choice. In this way, neither
the federal plaintiffs right to seek damages for constitutional
violations nor the state’s interest in its own system is frustrated.

24

Id.

25

IV.

18
19
20
21
22

JDDL

Moreover, Younger principles also apply to a plaintiffs request for damages, but in
Gilbertson v.

Motion for Rule 65(b) Restraining Order

26

Whether to grant or deny a motion for a temporary restraining order or preliminary

27

injunction is within the Court’s discretion. See Miss Universe, Inc. v. Flesher, 605 F.2d

28

1130, 1132-33 (9th Cir. 1979). An injunction or restraining order is appropriate to grant

-6-

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 7 of 18

1

intermediate relief of the same character as which may be granted finally, and relief is not

2

proper when requested on matters lying wholly outside the issues in suit. See DeBeers

3

Consol. Mines v. United States., 325 U.S. 212, 220 (1945); Kaimowitz v. Orlando, Fla.,

4

122 F.3d 41,43 (11th Cir.), amended, 131 F.3d 950 (11th Cir. 1997). To obtain injunctive

5

relief, the party “must necessarily establish a relationship between the injury claimed in the

6

party’s motion and the conduct asserted in the complaint.” Devose v. Herrington, 42 F.3d

7

470, 471 (8th Cir. 1994). Because the Court has dismissed the First Amended Complaint,

8

the Court will deny without prejudice Plaintiffs Motion for Rule 65(b) Restraining Order.

9

V.

Warnings

10

A.

11

If Plaintiff is released while this case remains pending, and the filing fee has not

12

been paid in full, Plaintiff must, within 30 days of his release, either (1) notify the Court

13

that he intends to pay the unpaid balance of his filing fee within 120 days of his release or

14

(2) file a non-prisoner application to proceed in forma pauperis. Failure to comply may

15

result in dismissal of this action.

Release

16

B.

17

Plaintiff must file and serve a notice of a change of address in accordance with Rule

18

83.3(d) of the Local Rules of Civil Procedure. Plaintiff must not include a motion for other

19

relief with a notice of change of address. Failure to comply may result in dismissal of this

20

action.

Address Changes

21

C.

22

If Plaintiff fails to timely comply with every provision of this Order, including these

23

warnings, the Court may dismiss this action without further notice. See Ferdik, 963 F.2d

24

at 1260-61 (a district court may dismiss an action for failure to comply with any order of

25

the Court).

26

IT IS ORDERED:

27

(1)

Possible Dismissal

Plaintiffs Application to Proceed In Forma Pauperis (Doc. 6) is granted.

28
JDDL

-7-

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 8 of 18

1

(2)

As required by the accompanying Order to the appropriate government

2

agency, Plaintiff must pay the $350.00 filing fee and is assessed an initial partial filing fee

3

of $73.33.

4

(3)

The First Amended Complaint (Doc. 4) is dismissed for failure to comply

5

with Local Rule of Civil Procedure 3.4. Plaintiff has 30 days from the date this Order is

6

filed to file a second amended complaint in compliance with this Order.

7

(4)

If Plaintiff fails to file a second amended complaint within 30 days, the Clerk

8

of Court must, without further notice, enter a judgment of dismissal of this action without

9

prejudice and deny any pending unrelated motions as moot.

10
11
12
13
14

(5)

Plaintiffs Motion for Rule 65(b) Restraining Order (Doc. 8) is denied

without prejudice.
(6)

The Clerk of Court must mail Plaintiff a court-approved form for filing a

civil rights complaint by a prisoner.
Dated this 14th day of February, 2020.

15
16

O

17

James A Teilbrorg
Senior United States District Judge

18
19
20
21
22
23
24
25
26
27
28

JDDL

-8-

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 9 of 18

Instructions for a Prisoner Filing a Civil Rights Complaint
in the United States District Court for the District of Arizona
1. Who May Use This Form. The civil rights complaint form is designed to help incarcerated
persons prepare a complaint seeking relief for a violation of their federal civil rights. These
complaints typically concern, but are not limited to, conditions of confinement. This form
should not be used to challenge your conviction or sentence. If you want to challenge a state
conviction or sentence, you should file a petition under 28 U.S.C. § 2254 for a writ of habeas
corpus by a person in state custody. If you want to challenge a federal conviction or sentence, you
should file a motion under 28 U.S.C. § 2255 to vacate sentence in the federal court that entered the
judgment.
2. The Form. Local Rule of Civil Procedure (LRCiv) 3.4(a) provides that complaints by
incarcerated persons must be filed on the court-approved form. The form must be typed or
neatly handwritten. The form must be completely filled in to the extent applicable. All questions
must be answered clearly and concisely in the appropriate space on the form. If needed, you may
attach additional pages, but no more than fifteen additional pages, of standard letter-sized
paper. You must identify which part of the complaint is being continued and number all pages. If
you do not fill out the form properly, you will be asked to submit additional or corrected
information, which may delay the processing of your action. You do not need to cite law.
3. Your Signature. You must tell the truth and sign the form. If you make a false statement of a
material fact, you may be prosecuted for perjury.
4. The Filing and Administrative Fees. The total fees for this action are $400.00 ($350.00 filing
fee plus $50.00 administrative fee). If you are unable to immediately pay the fees, you may
request leave to proceed in forma pauperis. Please review the “Information for Prisoners Seeking
Leave to Proceed with a (Non-Habeas) Civil Action in Federal Court In Forma Pauperis Pursuant
to 28 U.S.C. § 1915” for additional instructions.
5. Original and Judge’s Copy. You must send an original plus one copy of your complaint and
of any other documents submitted to the Court. You must send one additional copy to the Court if
you wish to have a file-stamped copy of the document returned to you. All copies must be
identical to the original. Copies may be legibly handwritten. This section does not apply to
inmates housed at an Arizona Department of Corrections facility that participates in
electronic filing.
6. Where to File. You should file your complaint in the division where you were confined
when your rights were allegedly violated. See LRCiv 5.1 (a) and 77.1 (a). If you were confined
in Maricopa, Pinal, Yuma, La Paz, or Gila County, file in the Phoenix Division. If you were
confined in Apache, Navajo, Coconino, Mohave, or Yavapai County, file in the Prescott Division.
If you were confined in Pima, Cochise, Santa Cruz, Graham, or Greenlee County, file in the
Tucson Division. Mail the original and one copy of the complaint with the $400 filing and
administrative fees or the application to proceed in forma pauperis to:

Revised 3/11/16

1

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 10 of 18

Phoenix & Prescott Divisions:
U.S. District Court Clerk
U.S. Courthouse, Suite 130
401 West Washington Street, SPC 10
Phoenix, Arizona 85003-2119

OR

Tucson Division:
U.S. District Court Clerk
U.S. Courthouse, Suite 1500
405 West Congress Street
Tucson, Arizona 85701-5010

7. Change of Address. You must immediately notify the Court and the defendants in writing of
any change in your mailing address. Failure to notify the Court of any change in your mailing
address may result in the dismissal of your case.
8. Certificate of Service. You must furnish the defendants with a copy of any document you
submit to the Court (except the initial complaint and application to proceed in forma pauperis).
Each original document (except the initial complaint and application to proceed in forma pauperis)
must include a certificate of service on the last page of the document stating the date a copy of the
document was mailed to the defendants and the address to which it was mailed. See Fed. R. Civ.
P. 5(a), (d). Any document received by the Court that does not include a certificate of service
may be stricken. This section does not apply to inmates housed at an Arizona Department of
Corrections facility that participates in electronic filing.
A certificate of service should be in the following form:
I hereby certify that a copy of the foregoing document was mailed
(month, day, year) to:
this
Name:
Address:
Attorney for Defendant(s)
(Signature)
9. Amended Complaint. If you need to change any of the information in the initial complaint,
you must file an amended complaint. The amended complaint must be written on the
court-approved civil rights complaint form. You may file one amended complaint without leave
(permission) of Court within 21 days after serving it or within 21 days after any defendant has filed
an answer, whichever is earlier. See Fed. R. Civ. P. 15(a). Thereafter, you must file a motion for
leave to amend and lodge (submit) a proposed amended complaint. LRCiv 15.1. In addition, an
amended complaint may not incorporate by reference any part of your prior complaint. LRCiv
15.1(a)(2). Any allegations or defendants not included in the amended complaint are
considered dismissed. All amended complaints are subject to screening under the Prison
Litigation Reform Act; screening your amendment will take additional processing time.
10. Exhibits. You should not submit exhibits with the complaint or amended complaint.
Instead, the relevant information should be paraphrased. You should keep the exhibits to use to
support or oppose a motion to dismiss, a motion for summary judgment, or at trial.
11. Letters and Motions. It is generally inappropriate to write a letter to any judge or the staff of
any judge. The only appropriate way to communicate with the Court is by filing a written
pleading or motion.
2

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 11 of 18

12. Completing the Civil Rights Complaint Form.
HEADING:
1. Your Name. Print your name, prison or inmate number, and institutional mailing
address on the lines provided.
2. Defendants. If there are four or fewer defendants, print the name of each. If you
name more than four defendants, print the name of the first defendant on the first line,
write the words “and others” on the second line, and attach an additional page listing the
names of all of the defendants. Insert the additional page after page 1 and number it
“1-A” at the bottom.
3. Jury Demand. If you want a jury trial, you must write “JURY TRIAL DEMANDED”
in the space below “CIVIL RIGHTS COMPLAINT BY A PRISONER.” Failure to do so
may result in the loss of the right to a jury trial. A jury trial is not available if you are
seeking only injunctive relief.
Part A. JURISDICTION:
1. Nature of Suit. Mark whether you are filing the complaint pursuant to 42 U.S.C. § 1983
for state, county, or city defendants; “Bivens v. Six Unknown Federal Narcotics Agents'’
for federal defendants; or “other.” If you mark “other,” identify the source of that
authority.
2. Location. Identify the institution and city where the alleged violation of your rights
occurred.
3. Defendants. Print all of the requested information about each of the defendants in the
spaces provided. If you are naming more than four defendants, you must provide the
necessary information about each additional defendant on separate pages labeled “2-A,”
“2-B,” etc., at the bottom. Insert the additional page(s) immediately behind page 2.
Part B. PREVIOUS LAWSUITS:
You must identify any other lawsuit you have filed in either state or federal court while you
were a prisoner. Print all of the requested information about each lawsuit in the spaces provided.
If you have filed more than three lawsuits, you must provide the necessary information about each
additional lawsuit on a separate page. Label the page(s) as “2-A,” “2-B,” etc., at the bottom of the
page and insert the additional page(s) immediately behind page 2.
PartC. CAUSE OF ACTION:
You must identify what rights each defendant violated. The form provides space to allege
three separate counts (one violation per count). If you are alleging more than three counts, you
must provide the necessary information about each additional count on a separate page. Number
the additional pages “5-A,” “5-B,” etc., and insert them immediately behind page 5. Remember
that you are limited to a total of fifteen additional pages.
3

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 12 of 18

1. Counts. You must identify which civil right was violated. You may allege the
violation of only one civil right per count.
2. Issue Involved. Check the box that most closely identifies the issue involved in your
claim. You may check only one box per count. If you check the box marked “Other,”
you must identify the specific issue involved.
3. Supporting Facts. After you have identified which civil right was violated, you must
state the supporting facts. Be as specific as possible. You must state what each
individual defendant did to violate your rights. If there is more than one defendant, you
must identify which defendant did what act. You also should state the date(s) on which
the act(s) occurred, if possible.
4. Injury. State precisely how you were injured by the alleged violation of your rights.
5. Administrative Remedies. You must exhaust any available administrative remedies
before you file a civil rights complaint. See 42 U.S.C. § 1997e. Consequently, you
should disclose whether you have exhausted the inmate grievance procedures or
administrative appeals for each count in your complaint. Ifthe grievance procedures were
not available for any of your counts, fully explain why on the lines provided.
Part D. REQUEST FOR RELIEF:
Print the relief you are seeking in the space provided.
SIGNATURE:
You must sign your name and print the date you signed the complaint. Failure to sign the
complaint will delay the processing of your action. Unless you are an attorney, you may not bring
an action on behalf of anyone but yourself.
FINAL NOTE
You should follow these instructions carefully. Failure to do so may result in your
complaint being stricken or dismissed. All questions must be answered concisely in the proper
space on the form. If you need more space, you may attach no more than fifteen additional pages.
But the form must be completely filled in to the extent applicable. If you attach additional pages,
be sure to identify which section of the complaint is being continued and number the pages.

4

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 13 of 18

Name and Prisoner/Booking Number

Place of Confinement

Mailing Address

City, State, Zip Code

(Failure to notify the Court of your change of address may result in dismissal of this action.)

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA

(Full Name of Plaintiff)

Plaintiff,
CASE NO.

v.

(To be supplied by the Clerk)

0)

(Full Name of Defendant)

CIVIL RIGHTS COMPLAINT
BY A PRISONER

(2)
(3)

□ Original Complaint
□ First Amended Complaint
□ Second Amended Complaint

(4)
Defendant(s).
ED Check if there are additional Defendants and attach page 1-A listing them.

A. JURISDICTION
1.

This Court has jurisdiction over this action pursuant to:
□ 28 U.S.C. § 1343(a); 42 U.S.C. § 1983
□ 28 U.S.C. § 1331; Bivens v. Six Unknown Federal Narcotics Agents, 403 U.S. 388 (1971).

□ Other:__________________________________________________________
2.

Institution/city where violation occurred:

Revised 3/11/16

1

550/555

Case 2:19-CV-05764-JAT—CDB Document 9 Filed 02/14/20 Page 14 of 18

B. DEFENDANTS
1.
as:

Name of first Defendant:

. The first Defendant is employed
at
(Institution)

(Position and Title)

2. Name of second Defendant:
as:

. The second Defendant is employed as:
at

(Position and Title)

3.

(Institution)

Name of third Defendant:

. The third Defendant is employed

as:

at
(Institution)

(Position and Title)

4. Name of fourth Defendant:
as:

. The fourth Defendant is employed
at

(Position and Title)

(Institution)

If you name more than four Defendants, answer the questions listed above for each additional Defendant on a separate page.

C. PREVIOUS LAWSUITS
1.

Have you filed any other lawsuits while you were a prisoner?

2.

If yes, how many lawsuits have you filed?

□ Yes

□ No

. Describe the previous lawsuits:

a. First prior lawsuit:
1. Parties:____________
v.
2. Court and case number:
3. Result: (Was the case dismissed? Was it appealed? Is it still pending?)

b. Second prior lawsuit:
1. Parties:____________
v.
2. Court and case number:
3. Result: (Was the case dismissed? Was it appealed? Is it still pending?)

c. Third prior lawsuit:
1. Parties: _____________
v.
2. Court and case number:
3. Result: (Was the case dismissed? Was it appealed? Is it still pending?)

If you fded more than three lawsuits, answer the questions listed above for each additional lawsuit on a separate page.

2

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 15 of 18

D. CAUSE OF ACTION
1.
2.

COUNT I
State the constitutional or other federal civil right that was violated:
Count I. Identify the issue involved. Check only one. State additional issues in separate counts.
□ Access to the court
□ Medical care
□ Basic necessities
□ Mail
□ Disciplinary proceedings
□ Property
□ Exercise of religion
□ Retaliation
□ Excessive force by an officer □ Threat to safety □ Other:___________________________

3. Supporting Facts. State as briefly as possible the FACTS supporting Count I. Describe exactly what
each Defendant did or did not do that violated your rights. State the facts clearly in your own words without
citing legal authority or arguments.

4.

Injury. State how you were injured by the actions or inactions of the Defendant(s).

5.

Administrative Remedies:
a. Are there any administrative remedies (grievance procedures or administrative appeals) available at
□ Yes
□ No
your institution?
b. Did you submit a request for administrative relief on Count I?
□ Yes
□ No
c. Did you appeal your request for relief on Count I to the highest level?
□ Yes
□ No
d. If you did not submit or appeal a request for administrative relief at any level, briefly explain why you
did not. ______________________________________________________________________

3

Case 2:19-cv-05764-JAT—CDB Document 9 Filed 02/14/20 Page 16 of 18

1.

2.

COUNT II
State the constitutional or other federal civil right that was violated:
Count II. Identify the issue involved. Check only one. State additional issues in separate counts.
□ Basic necessities
□ Mail
□ Access to the court
□ Medical care
□ Disciplinary proceedings
□ Property
□ Exercise of religion
□ Retaliation
□ Excessive force by an officer □ Threat to safety □ Other:___________________________

3. Supporting Facts. State as briefly as possible the FACTS supporting Count II. Describe exactly what
each Defendant did or did not do that violated your rights. State the facts clearly in your own words without
citing legal authority or arguments.

4.

Injury. State how you were injured by the actions or inactions of the Defendant(s).

5.

Administrative Remedies.
a. Are there any administrative remedies (grievance procedures or administrative appeals) available at
your institution?
□ Yes
□ No
b. Did you submit a request for administrative relief on Count II?
□ Yes
□ No
c. Did you appeal your request for relief on Count II to the highest level?
□ Yes
□ No
d. If you did not submit or appeal a request for administrative relief at any level, briefly explain why you
did not. ______________________________________________________________________

4

Case 2:19-cv-05764-JAT~CDB Document 9 Filed 02/14/20 Page 17 of 18

1.
2.

COUNT III
State the constitutional or other federal civil right that was violated:
Count III. Identify the issue involved. Check only one. State additional issues in separate counts.
□ Access to the court
□ Medical care
□ Basic necessities
□ Mail
□ Disciplinary proceedings
□ Property
□ Exercise of religion
□ Retaliation
□ Excessive force by an officer □ Threat to safety □ Other:___________________________

3. Supporting Facts. State as briefly as possible the FACTS supporting Count III. Describe exactly what
each Defendant did or did not do that violated your rights. State the facts clearly in your own words without
citing legal authority or arguments.

4.

Injury. State how you were injured by the actions or inactions of the Defendant(s).

5.

Administrative Remedies.
a. Are there any administrative remedies (grievance procedures or administrative appeals) available at
□ Yes
□ No
your institution?
□ No
b. Did you submit a request for administrative relief on Count III?
□ Yes
□ No
c. Did you appeal your request for relief on Count III to the highest level?
□ Yes
d. If you did not submit or appeal a request for administrative relief at any level, briefly explain why you
did not. ______________________________________________________________________

If you assert more than three Counts, answer the questions listed above for each additional Count on a separate page.

5

Case 2:19-cv-05764-JAT--CDB Document 9 Filed 02/14/20 Page 18 of 18

E. REQUEST FOR RELIEF
State the relief you are seeking:

I declare under penalty of perjury that the foregoing is true and correct.
Executed on
DATE

SIGNATURE OF PLAINTIFF

(Name and title of paralegal, legal assistant, or
other person who helped prepare this complaint)

(Signature of attorney, if any)

(Attorney’s address & telephone number)
ADDITIONAL PAGES
All questions must be answered concisely in the proper space on the form. If you need more space, you may
attach no more than fifteen additional pages. But the form must be completely filled in to the extent applicable.
If you attach additional pages, be sure to identify which section of the complaint is being continued and number
all pages.

6

Case 2:19-cv-05764-JAT—CDB Document 10 Filed 02/14/20 Page 1 of 2

1

MDR

2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

No. CV 19-05764-PHX-JAT(CDB)

Mitch Taebel,

10

Plaintiff,

11

v.

ORDER FOR PAYMENT

12

Alane Ortega, et al.,

OF INMATE FILING FEE

13

Defendants.

14
15

TO: MARICOPA COUNTY SHERIFF PAUL PENZONE

16

Plaintiff Mitch Taebel, inmate #T430659, who is confined in a Maricopa County

17

Jail, must pay the statutory filing fee of $350.00. Plaintiff must first pay an initial partial

18

filing fee of $73.33. Thereafter, Plaintiff must pay the balance of the fee in monthly

19

payments of 20% of the preceding month’s income credited to Plaintiffs trust account.

20

Maricopa County Sheriff Paul Penzone or his designee must collect and forward these

21

payments to the Clerk of Court each time the amount in the account exceeds $10.00.

22

IT IS ORDERED:

23

(1)

Maricopa County Sheriff Paul Penzone or his designee must forward to the

24

Clerk of Court the initial partial filing fee of $73.33. The balance of the $350.00 filing fee

25

must be collected from Plaintiffs trust account in monthly payments of 20% of the

26

preceding month’s income credited to the account. Payments must be forwarded to the

27

Clerk of Court each time the amount in the account exceeds $10.00. The payments must

28

be clearly identified by the name and number assigned to this action.

Case 2:19-cv-05764-JAT-CDB Document 10 Filed 02/14/20 Page 2 of 2

1

(2)

Maricopa County Sheriff Paul Penzone or his designee must notify the Clerk

2

of Court in writing when Plaintiff is released or transferred to a correctional institution

3

other than a Maricopa County Jail, so new billing arrangements may be made to collect

4

any outstanding balance.

5

(3)

The Clerk of Court must serve by mail a copy of this Order on the Maricopa

6

County Sheriffs Office, Office of Inmate Legal Services, 3250 West Lower Buckeye

7

Road, Phoenix, Arizona, 85009.

8

(4)

The Clerk of Court must forward a copy of this Order to Financial

9

Administration for the Phoenix Division of the United States District Court for the District

10

of Arizona. Financial Administration must set up an account to receive payments on the

11

filing fee for this action and must notify the Court when the filing fee is paid in full.

12

Dated this 14th day of February, 2020.

13
14
15
James A. Teilborg
Senior United States District Judge

16
17
18
19
20
21
22
23
24
25
26
27
28

-2-

Additional material
from this filing is
available in the
Clerk's Office.

